No. ___________

In the
Supreme Court of the United States
CHIXAPKAID DONALD MICHAEL PAVEL,

Petitioner,
v.
UNIVERSITY OF OREGON; DOUG BLANDY;
PENELOPE DAUGHERTY; RANDY KAMPHAUS,
_______

Respondents.

On Petition For A Writ Of Certiorari To The
United States Court of Appeals For the Ninth Circuit
_______
PETITION FOR A WRIT OF CERTIORARI
_______
Marianne Dugan, Attorney at Law

Counsel of Record

1430 Willamette St. # 359
Eugene, Oregon 97401
(541) 338-7072
fax 866-650-5213
mdugan@mdugan.com

i
QUESTIONS PRESENTED
1) When a tenured professor at a public university
is accused of sexual harassment, and vigorously
disputes the allegations, do his due process rights
include confronting and cross-examining his accuser?
2) Does the Due Process Clause preclude
termination of such a professor when he had no prior
warning that discipline for a single sexual harassment
charge could include termination, and no tenured
professor at that university had ever been fired?
3) When a professor at a public university gains
tenure, and later his department unionizes, are his
post-termination due process rights limited to the
union's discretion whether to pursue or decline
arbitration?
4) For purposes of a substantive due process claim,
is it clearly established that, in a large bureaucratic
university, the person who terminates an employee
need not be the same person who publicly issued
stigmatizing information about the employee?

ii
LIST OF PARTIES
The name of the Petitioner is:
Chixapkaid Donald Michael Pavel
The names of the Respondents are:
University of Oregon; Doug Blandy; Penelope
Daugherty; and Randy Kamphaus.
CORPORATE DISCLOSURE STATEMENT
University of Oregon is a government entity. No
other party is a corporation.
RELATED CASES
• Pavel v. University of Oregon, et al., No.
6:16-cv-00819-AA, U.S. District Court for Oregon.
Judgment entered March 15, 2018.
• Pavel v. University of Oregon, et al., No.
18-35287, U.S. Court of Appeals for the Ninth
Circuit. Judgment entered May 29, 2019.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT. . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. THE NINTH CIRCUIT MISAPPLIED THE
RELEVANT CASE LAW PROTECTING THE
RIGHTS OF TENURED PROFESSORS AT
PUBLIC UNIVERSITIES. . . . . . . . . . . . . . . . . . . 6
A. The Ninth Circuit's Ruling . . . . . . . . . . . . . . . 6

iv
B. The University's Process in Firing Dr.
Pavel. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
C. As a Tenured Professor at a Public University,
Disputing an Accusation of Sexual
Harassment, Petitioner Was Entitled to an
Opportunity to Confront and Cross-Examine
His Accuser . . . . . . . . . . . . . . . . . . . . . . . . . . 11
D. The University Violated Dr. Pavel's Due
Process Rights by Terminating Him with No
Prior Notice that a Single Disciplinary Decision
Regarding Alleged Sexual Harassment Could
Lead to Termination . . . . . . . . . . . . . . . . . . . 17
II. The Union's Discretion to Pursue Post-Deprivation
Process Does Not Satisfy the Due Process
Clause . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
III. The Ninth Circuit Erred in Granting Qualified
Immunity on Substantive Due Process . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
APPENDIX
Circuit Court Opinion (May 29, 2019). . . . . . . App. 1a
District Court Order Granting Partial Summary
Judgment (April 3, 2017) . . . . . . . . . . . . . . . . . App. 8a

v
District Court Order Granting Summary Judgment
(March 13, 2018). . . . . . . . . . . . . . . . . . . . . . . App. 43a
District Court Judgment (March 15, 2018). . App. 74a
Circuit Court Order Denying Petition for Rehearing
(July 9, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . App. 76a

vi
TABLE OF AUTHORITIES
CASES

Armstrong v. Meyers, 964 F.2d 948 (9th Cir.

1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21-23

Baker v. Racansky, 887 F.2d 183 (9th Cir. 1989) . . . 9
Brewster v. Bd. of Educ. of Lynwood Unified Sch. Dist.,

149 F.3d 971 (9th Cir. 1998) . . . . . . . . . . . . . . . . . 6, 8

Carter v. Kubler, 320 U.S. 243, 64 S. Ct. 1 (1943) . 12
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 105

S. Ct. 1487 (1985) . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 23

Doe v. Baum, 903 F.3d 575 (6th Cir. 2018). . . . . 5, 15
Doe v. Cincinnati, 872 F.3d 393 (6th Cir.

2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 14-16

Greene v. McElroy, 360 U.S. 474, 79 S. Ct. 1400

(1959) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 11, 17

Morgan v. United States, 304 U.S. 1, 588 S. Ct. 773

(1938) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Ohio Bell Telephone Co. v. Public Utilities Commission,

301 U. S. 292, 57 S. Ct. 724 (1937) . . . . . . . . . . . . . 12

Peters v. Hobby, 349 U.S. 331, 75 S. Ct. 790

(1955) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 13, 17

vii

Reilly v. Pinkus, 338 U.S. 269, 70 S. Ct. 110

(1949) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Slochower v. Board of Higher Educ., 350 U.S. 551, 76

S. Ct. 637 (1956) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7, 8

Southern R. Co. v. Virginia, 290 U.S. 190, 54 S. Ct.

148 (1933) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Staub v. Proctor Hosp., 562 U.S. 411, 131 S. Ct. 1186

(2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 24

Turrado-Garcia v. I.N.S., 933 F.2d 1016 (9th Cir.

1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

Weinberg v. Whatcom County, 241 F.3d 746 (9th Cir.
2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
UNITED STATES CONSTITUTION

U.S. Const. Amend. V . . . . . . . . . . . . . . . 2, 23, passim
U.S. Const. Amend. XIV . . . . . . . . . . . . . 2, 23, passim
OTHER AUTHORITIES
Brutus Essay XIII, in The Anti-Federalist 180
(Herbert J. Storing ed., 1985) . . . . . . . . . . . . . . . 15-16

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, Chixapkaid Donald Michael Pavel,
petitions for a writ of certiorari to review the final
judgment of the United States Court of Appeals for the
Ninth Circuit (entered May 29, 2019, with rehearing
denied July 9, 2019), affirming the District Court’s
Order and Judgment in favor of defendants.
OPINIONS BELOW
The Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit (N.R. Smith,
Watford, and R. Nelson, Circuit Judges) is not
reported, and is set forth in the Appendix at App. 1a
through App. 7a. The relevant Orders of the United
States District Court for the District of Oregon (Aiken,
J.), granting defendants' Motions for Summary
Judgment and dismissing plaintiff's case with prejudice,
are not reported, and are set forth in the Appendix at
App. 8a to 42a and App. 43a to 73a. The District
Court's Judgment is not reported and is set forth in the
Appendix at App. 74a through 75a. The Ninth Circuit
Order denying the petition for rehearing is not reported,
and is set forth in the Appendix at App. 76a through
App. 77a.
STATEMENT OF JURISDICTION
The judgment of the United States Court of Appeals
for the Ninth Circuit was entered on May 29, 2019.

2
App. 1a-7a. The Ninth Circuit denied petitioner's
petition for panel rehearing and rehearing en banc on
July 9, 2019. App. 76a-77a. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment to the Constitution (U.S.
Const. Amend. V) provides, in relevant part:
No person shall . . . be deprived of life, liberty, or
property, without due process of law . . . .
Section I of the Fourteenth Amendment to the
Constitution (U.S. Const. Amend. XIV) provides, in
relevant part:
No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law . . . .
STATEMENT OF THE CASE
In this historic "Me Too" era, it is tempting to allow,
without comment or scrutiny, the "civil death" of the
livelihood of public employees who are accused of sexual
harassment. This Court has the opportunity to
scrutinize the appeals that are bound to come before it
regarding the intersection of due process rights of public

3
employees and the rights of people who charge those
employees with sexual harassment.
Plaintiff was the only Native American fully tenured
professor at the University of Oregon. He was accused
of sexual harassment and was fired. It is undisputed he
is the only tenured professor at the University of
Oregon ever fired, for any reason, in its 143-year
history.
Plaintiff was told he was being fired only one
working day before the termination took effect. He was
never allowed to read a written explanation of the
allegations against him. He was not allowed to confront
and cross-examine his accuser. The allegations were
stated to him verbally in a hostile, accusatory manner,
and the investigators told him they were certain they
would find a "pattern" of harassment. He had no prior
discipline in his personnel file. Numerous other
University of Oregon tenured professors had previously
had sexual harassment accusations sustained against
them, but none were fired.
To make matters worse, the University disclosed the
allegations to the local newspaper, naming Dr. Pavel.
Dr. Pavel filed suit for violations of substantive and
procedural Due Process; Equal Protection; First
Amendment retaliation; and racial and gender
discrimination. Defendants filed a motion for partial
summary judgment on plaintiff's due process claims,
which was granted. Defendants then filed a motion for
summary judgment on the remaining claims, which was

4
granted.
The District Court did find that the Due Process
clause required the University to provide plaintiff with
more procedural protections, and that plaintiff had
presented a due process claim sufficient to proceed to a
jury. However, the court chose to let the defendants off
the hook on "qualified immunity." Plaintiff's due
process rights were clearly established at the time of his
termination, so that result was in error. Even if prior
case law had not already made clear that more process
was due, the University's own precedents precluded
involuntary termination of a tenured professor under
these circumstances, without clear notice of a change in
policy and practice.
In the last year, deep thinkers from both the left and
right have advocated for a revisiting, and indeed, a
revision, of the judicially created doctrine of "qualified
immunity."
See, e.g., http://www.nytimes.com/
2018/07/11/nyregion/qualified-immunity-supreme-cou
rt.html
However, even without revisiting that doctrine, this
Court should reverse the Ninth Circuit's decision
upholding the dismissal of plaintiff's claims.
REASONS FOR GRANTING THE WRIT
Supreme Court review is appropriate because the
Ninth Circuit's decision conflicts with this Court's
precedent in Greene v. McElroy, 360 U.S. 474, 496- 97,

5
79 S. Ct. 1400 (1959); Peters v. Hobby, 349 U.S. 331,
351, 75 S. Ct. 790 (1955); Slochower v. Board of Higher
Educ., 350 U.S. 551, 559, 76 S. Ct. 637, 641 (1956);
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 546,
105 S. Ct. 1487 (1985); and Staub v. Proctor Hosp., 562
U.S. 411, 131 S. Ct. 1186 (2011). Consideration by the
Supreme Court is therefore necessary to secure and
maintain uniformity of the court's decisions.
In addition, there is a split in the circuits on the due
process issues presented in this case, with the Sixth
Circuit recently holding in two cases that students at
public universities who are accused of sexual
harassment have the right to cross-examine their
accusers, whereas the Ninth Circuit rejected petitioner's
argument on that point, in the context of a fully tenured
professor accused of the same type of behavior. Doe v.
Cincinnati, 872 F.3d 393 (6th Cir. 2017); Doe v. Baum,
903 F.3d 575 (6th Cir. 2018).
Furthermore, this case involves a question of
exceptional importance.
To petitioner's counsel's
knowledge, this is the first case in which a full tenured
professor at a publicly run university has been
terminated for issues not related in any way to his
qualifications as a professor.
Underscoring the
importance of this case is that petitioner was not
granted the full due process rights (including the right
to cross-examination) which this Court held sixty years
ago, in Greene, is required before terminating a public
employee based on disputed allegations.

6
ARGUMENT
I. THE NINTH CIRCUIT MISAPPLIED THE
RELEVANT CASE LAW PROTECTING THE
RIGHTS OF TENURED PROFESSORS AT PUBLIC
UNIVERSITIES
A. The Ninth Circuit's Ruling
It is undisputed that plaintiff was a tenured
professor at a public university the University of
Oregon), therefore undisputedly entitled to the highest
level of due process rights before terminating his
employment and thereby (based on the facts taken in
the light most favorable to plaintiff) destroying
plaintiff's career.
The Ninth Circuit correctly set forth the applicable
case law, stating:
The base "requirement of the Due Process Clause is
that a person deprived of property be given an
opportunity to be heard at a meaningful time and in
a meaningful "manner." Brewster v. Bd. of Educ. of
Lynwood Unified Sch. Dist.", 149 F.3d 971 (9th Cir.
1998)] at 984 (internal quotation marks omitted).
"The tenured public "employee is entitled to oral or
written notice of the charges against him, an
"explanation of the employer's evidence, and an
opportunity to present his side of ""the story."
"Cleveland Bd. of Educ. v. Loudermill", 470 U.S. 532,
546 (1985).

7
The Ninth Circuit then, however, proceeded to
erroneously find that:
Pavel has not presented any closely
corresponding factual and legal precedent to the
circumstances where a formal administrative and
police complaint had been made by a student about
a tenured professor who had access to a robust posttermination process.
Those due process
requirements which are clearly established were
satisfied here: Pavel received oral communications
about the charges made against him, as well as a
written summary of the findings from the
"University's investigation, and was given
opportunities to respond. These facts balanced with
the robust post-termination process available to him,
satisfy the clearly established requirements of due
process. The additional and nuanced due process
rights which Pavel desires are not clearly
established in the law. Consequently, the individual
defendants merit qualified immunity.
First, to perhaps state the obvious, because tenured
professors generally do not get fired, there is no onpoint case law. If there was such case law, presumably
defendant would have presented it front and center.
Second, plaintiff did actually present the case law
his counsel was able to locate, which makes clear that
a tenured public university professor has a property
interest in his position, and thus cannot be deprived of
that position without due process. Slochower v. Board
of Higher Educ., 350 U.S. 551, 559, 76 S. Ct. 637, 641

8
(1956). In Slochower, this Court held that a public
university violated the Due Process Clause when it
summarily discharged a tenured professor accused of
being a communist.
In dismissing plaintiff's pre-termination procedural
due process claim on qualified immunity grounds, the
District Court stated:
Procedural due process requires a fact-specific
and mercurial inquiry. See Gilbert [v. Hamar], 520
U.S. [924], 930 [(1997)] (explaining any categorical
rule in the procedural due process context is
"indefensible"). As the Ninth Circuit has explained:
[F]or all its consequence, due process has never
been, and perhaps never can be, precisely
defined. Rather, the phrase expresses the
requirement of fundamental fairness, a
requirement whose meaning can be as opaque as
its importance is lofty. As a result, deciphering
and applying the Due Process Clause is, at best,
an uncertain enterprise . . . . After all, unlike
some legal rules, due process is not a technical
conception with a fixed content unrelated to time,
place and circumstances, . . . One cannot
accurately predict how any specific case will be
decided.

Brewster [v. Bd. of Educ. of Lynwood Unified Sch.
Dist.], 149 F.3d [971,] 983-84 [(9th Cir. 1998)]
(quotation marks and citations omitted). As such,
procedural due process claims "can rarely be

9
considered 'clearly established' at least in the
absence of closely corresponding factual and legal
precedent." Baker v. Racansky, 887 F.2d 183, 187
(9th Cir. 1989) (quotation marks omitted).
App 32a.
Applying the Baker case to plaintiff's pretermination claim would eviscerate the procedural due
process clause, by depriving virtually all public
employees of pre-termination procedural rights,
granting their employers qualified immunity. Given the
facts presented, it is hard to imagine a case where such
rights could be enforced under this view of Baker.
The case law is clearly established regarding
plaintiff's pre-termination due process rights. The
question of whether the process provided during the
investigation was adequate is a disputed question of
fact.
B. The University's Process in Firing Dr. Pavel
The process provided to petitioner prior to
termination was deeply flawed, and this issue should be
submitted to a jury. See, e.g., Weinberg v. Whatcom
County, 241 F.3d 746, 750 (9th Cir. 2001) (holding that
the question of whether process provided was adequate
is a question of fact); Turrado-Garcia v. I.N.S., 933 F.2d
1016 (9th Cir. 1991) (same).
The District Court focused on what it labeled "five
days" plaintiff had between the meeting in which he

10
was told he was being terminated, and the date of
termination. App. 21a. But that was in fact only one
business day, due to intervening weekend and holiday
– Dr. Pavel was told on a Friday he was being
terminated, with the termination date being the
following Tuesday after the holiday.
Given the
enormity of being stripped of his entire career, one
business day can hardly be considered sufficient time to
evaluate options, and then to carry out a strategy (such
as negotiating a resignation in lieu of termination).
As the Ninth Circuit noted in its opinion, plaintiff
did not submit a written statement. But he was unable
to meaningfully respond because he was never given a
written copy of the complaint, was never given the
details of the allegations to review and respond to, and
was not given the evidence gathered by the University.
The University made clear from the very beginning that
it was not interested in cooperating with Dr. Pavel but
rather that it would find "a pattern" and find him to be
liable.
The University did not act in good faith. The
University did not inform Dr. Pavel prior to the meeting
that it would be documented only with handwritten
notes, and that no written allegations would be shared
with him. An oral denial to sharply confrontational
questions from the investigator was all Dr. Pavel could
offer. Providing a meaningful written response would
have required seeing the actual complaint, or some
other substantial and verifiable version of the
complainant's allegations, rather than the personal
interpretations the biased investigator shared during

11
the interview.
The pre-termination process was
polluted by the biased and malicious nature of the
investigative report.
Plaintiff was then called to a second meeting, where
he was told he was being fired, only one working day
before the termination took effect. He was still not
given a written explanation of the allegations against
him, and was never allowed to confront and crossexamine his accuser.
As discussed infra, there was no prior notice to Dr.
Pavel that he could be terminated based on a single
disciplinary decision regarding alleged sexual
harassment; and no other tenured professor had ever
been fired, for any reason.
C. As a Tenured Professor at a Public University,
Disputing an Accusation of Sexual Harassment,
Petitioner Was Entitled to an Opportunity to
Confront and Cross-Examine His Accuser
Under this Court's precedents, the situation
presented in this case invokes the right to confrontation
and cross-examination. In Greene v. McElroy, this
Court explained sixty years ago:
Certain principles have remained relatively
immutable in our jurisprudence. One of these is
that where governmental action seriously injures an
individual, and the reasonableness of the action
depends on fact findings, the evidence used to prove
the Government's case must be disclosed to the

12
individual so that he has an opportunity to show
that it is untrue. While this is important in the case
of documentary evidence, it is even more important
where the evidence consists of the testimony of
individuals whose memory might be faulty or who,
in fact, might be perjurers or persons motivated by
malice, vindictiveness, intolerance, prejudice, or
jealousy. We have formalized these protections in
the requirements of confrontation and
cross-examination. They have ancient roots. They
find expression in the Sixth Amendment which
provides that in all criminal cases the accused shall
enjoy the right "to be confronted with the witnesses
against him." This Court has been zealous to protect
these rights from erosion. It has spoken out not only
in criminal cases, . . . but also in all types of cases
where administrative and regulatory actions were
under scrutiny. E.g., Southern R. Co. v. Virginia,
290 U.S. 190[, 54 S. Ct. 148 (1933)]; Ohio Bell
Telephone Co. v. Public Utilities Commission, 301 U.
S. 292[, 57 S. Ct. 724 (1937)]; Morgan v. United
States, 304 U.S. 1, 19[, 588 S. Ct. 773 (1938)]; Carter
v. Kubler, 320 U.S. 243[, 64 S. Ct. 1 (1943)]; Reilly v.
Pinkus, 338 U.S. 269[, 70 S. Ct. 110 (1949)].
360 U.S. 474, 496- 97, 79 S. Ct. 1400 (1959).
A few years earlier, in the context of loss of
government employment, Justice Douglas (in a
concurrence) set forth the importance of crossexamination to fundamental principles of due process:
Confrontation and cross-examination under oath are

13
essential, if the American ideal of due process is to
remain a vital force in our public life. We deal here
with the reputation of men and their right to workthings more precious than property itself.

Peters v. Hobby, 349 U.S. 331, 351, 75 S. Ct. 790 (1955).
In Peters, the context was the federal debarment of a
professor of medicine who had served as Special
Consultant in the United States Public Health Service
of the Federal Security Agency. He was debarred after
being accused of disloyalty to the government. As
Justice Douglas noted:

Dr. Peters was condemned by faceless informers,
some of whom were not known even to the Board
that condemned him. Some of these informers were
not even under oath. None of them had to submit to
cross- examination. None had to face Dr. Peters. So
far as we or the Board know, they may be
psychopaths or venal people, like Titus Oates, who
revel in being informers. They may bear old
grudges. Under cross-examination their stories
might disappear like bubbles. Their whispered
confidences might turn out to be yarns conceived by
twisted minds or by people who, though sincere,
have poor faculties of observation and memory.

Id. at 350-51.
Although Dr. Pavel was told who his accuser was,
like Dr. Peters he was given no opportunity to crossexamine or otherwise confront the evidence against
him.

14
These strongly-worded Supreme Court cases arose
out of the McCarthy era, when public employees lost
their jobs overnight due to accusations of "disloyalty" or
"communism." In the present era, we are challenged
instead with the sensitive issues surrounding the "metoo" movement, where the mere whisper of alleged
sexual harassment is increasingly a career death
sentence. In the context of a tenured professor at a
public university, these Supreme Court cases from the
1950s are highly instructive as to the care that must be
exercised before destroying these employees' careers
without any right to confront and cross-examine the
evidence that is alleged.
The Sixth Circuit did recently address these rights
in the more recent "me too" context. That court held
that the opportunity to cross-examine a complainant
and the complainant's witnesses is required as part of
due process when a public university student accuses
another student of sexual harassment or assault, if
credibility is at issue. Doe v. Cincinnati, 872 F.3d 393,
401-02 (6th Cir. 2017). In that case, the court noted
that credibility disputes are more likely to arise in
sexual misconduct proceedings than in other types of
disciplinary investigations. Id. at 406.
It would be perverse to allow cross-examination
when one student accuses another; but not to allow it
when a student accuses a tenured professor, with the
utmost property interest at stake.
Even more recently, the Sixth Circuit clarified in
another case the circumstances under which

15
"credibility" issues require the opportunity for cross
examination. In Doe v. Baum, the Court noted that
cross-examination is required not only in a "he said/she
said" situation, but even where there are witnesses who
corroborate one or the other version of the facts – that
is, in any situation where there are "competing
narratives." 903 F.3d 575, 581 (6th Cir. 2018).
In Doe v. Baum, the accused was allowed to review
the accuser's statement, and was allowed to submit a
response identifying any inconsistencies he saw – much
more than Dr. Pavel was allowed in the instant case.
But even that was held to be insufficient. The
university argued that those steps provided sufficient
due process. The court disagreed, noting:
In University of Cincinnati, we explained that an
accused's ability "to draw attention to alleged
inconsistencies" in the accuser's statements does not
render cross-examination futile. Id. at 401-02. That
conclusion applies equally here, and we see no
reason to doubt its wisdom. Cross-examination is
essential in cases like Doe's because it does more
than uncover inconsistencies – it "takes aim at
credibility like no other procedural device." Id.
Without the back-and-forth of adversarial
questioning, the accused cannot probe the witness's
story to test her memory, intelligence, or potential
ulterior motives. Id. at 402. Nor can the fact-finder
observe the witness's demeanor under that
questioning.
Id.
For that reason, written
statements cannot substitute for cross-examination.
See Brutus Essay XIII, in The Anti-Federalist 180

16
(Herbert J. Storing ed., 1985) ("It is of great
importance in the distribution of justice that
witnesses should be examined face to face, that the
parties should have the fairest opportunity of
cross-examining them in order to bring out the
whole truth; there is something in the manner in
which a witness delivers his testimony which cannot
be committed to paper, and which yet very
frequently gives a complexion to his evidence, very
different from what it would bear if committed to
writing. . . ."). Instead, the university must allow for
some form of live questioning in front of the
fact-finder. See Univ. of Cincinnati, 872 F.3d at
402-03, 406 (noting that this requirement can be
facilitated through modern technology, including, for
example, by allowing a witness to be questioned via
Skype "without physical presence").
903 F.3d at 582-83.
The University of Cincinnati court explained that
"[d]ue process requires cross-examination in
circumstances like these because it is 'the greatest legal
engine ever invented' for uncovering the truth. 872
F.3d at 401-02 (citation omitted). Not only does
cross-examination allow the accused to identify
inconsistencies in the other side's story, but it also gives
the fact-finder an opportunity to assess a witness's
demeanor and determine which competing narrative is
more trustworthy. Id.
Plaintiff vehemently denied the allegations. An
opportunity for cross-examination was therefore

17
required. The Sixth Circuit's analysis and conclusions
in those cases are compelling, and comport with the
sixty-year-old due process case law from this Court in
Peters and Greene.
D. The University Violated Dr. Pavel's Due Process
Rights by Terminating Him with No Prior Notice
that a Single Disciplinary Decision Regarding
Alleged Sexual Harassment Could Lead to
Termination
Adding another layer of due process protection was
the fact that Dr. Pavel was a union member. Both
union employees and tenured professors can be
terminated only for "good cause." In that context, the
appropriate due process test takes into account whether
the employee was put on notice before the proscribed
behavior took place, that he or she could be terminated
for that behavior. Dr. Pavel was not, because there was
no precedent – no tenured professor at the University
had ever been fired in its 143-year history.
The Collective Bargaining Agreement requires the
University to "provide written notice and an
opportunity to respond prior to termination of a
bargaining unit faculty member." First, the Due
Process clause requires that such notice be provided far
enough in advance to allow for a meaningful response,
and here only one working day elapsed between that
"notice" and the termination. The meeting was not to
"propose" termination but to pronounce it, with no
opportunity for response from Dr. Pavel nor any hope of
reconsideration by the University.

18
The full seven-part test used for union employees is
as follows:
1. Did the employer give to the employee
forewarning or foreknowledge of the possible or
probable disciplinary consequences of the employee's
conduct?
2. Was the employer's rule or managerial order
reasonably related to (a) the orderly, efficient, and
safe operation of the employer's business and (b) the
performance that the employer might properly
expect of the employee?
3. Did the employer, before administering
discipline to an employee, make an effort to discover
whether the employee did in fact violate or disobey
a rule or order of management?
4. Was the employer's investigation conducted
fairly and objectively?
5. At the investigation did the "judge" obtain
substantial evidence or proof that the employee was
guilty as charged?
6. Has the employer applied its rules, orders, and
penalties evenhandedly and without discrimination
to all employees?
7. Was the degree of discipline administered by
the employer in a particular case reasonably related
to (a) the seriousness of the employee's proven

19
offense and (b) the record of the employee in his
service with the employer?

Enterprise Wire Co., 46 Labor Arb. Reptr (BNA) 359,

362 (1966). All tests must be met for a "good cause"
termination of a union employee.
The first test was not met here. In deciding to
terminate Dr. Pavel, the investigators relied heavily on
trying to find a "pattern" of misbehavior, despite no
prior discipline in his personnel file. The District Court
stated that the University's affirmative action office file
included a note about a prior complaint by a student.
However, it is undisputed that Dr. Pavel's personnel file
contained no such documentation, and that he had
never been disciplined prior to being terminated. Thus,
it was error for the District Court to dismiss some
comparators (tenured professors accused of sexual
harassment but not fired) because they had no prior
complaints.
The Ninth Circuit upheld the District Court's
holding that only one other professor was a proper
comparator, who had numerous, extremely serious
sexual harassment accusations upheld against him. A
jury question has been raised as to whether Dr. Pavel
was provide with the same opportunity to resign as that
sole comparator which the University admits to. With
only one working day, and no written explanation of the
charges against him, a reasonable jury could find that
there was no such opportunity provided to Dr. Pavel.
Furthermore, the fact that the University had already
disclosed in the local newspaper the full extent of the

20
allegations against him could be deemed by a
reasonable jury to have deprived him of the opportunity
to gracefully "bow out" of the University and seek other
professorial employment.
The anti-harassment training Dr. Pavel had received
from the University did not outline any specific
behavior that would lead to termination. Nor does the
collective bargaining agreement explain that certain
specific behavior would lead to termination.
The lack of any prior precedent or notification by the
University demonstrates that the employer did not
"give to the employee forewarning or foreknowledge of
the possible or probable disciplinary consequences of the
employee's conduct."
For similar reasons, test number 6 is not met – "Has
the employer applied its rules, orders, and penalties
evenhandedly and without discrimination to all
employees?" As explained supra, Dr. Pavel was of
course not the very first tenured professor to be accused
of sexual harassment; other tenured professors had had
such accusations upheld.
Yet no other tenured
University of Oregon professor has ever been
terminated involuntarily.
All of these principles were clearly established at the
time of Dr. Pavel's termination. The flawed, accusatory
process that occurred, where plaintiff was not even
allowed to read a written explanation of the allegations
against him before losing his tenured position, did not
meet these fundamental requirements. Plaintiff should

21
be allowed to present these arguments and evidence to
a jury.
II. The Union's Discretion to Pursue Post-Deprivation
Process Does Not Satisfy the Due Process Clause
The Ninth Circuit panel also adopted the defendants'
argument that by joining a union, the University of
Oregon's tenured professors have collectively bargained
away their clearly applicable post-termination due
process rights – that those rights have been narrowed,
because they are now subject to the discretionary
decision-making process within the union as to whether
to arbitrate a termination. In the instant case, the
union chose not to arbitrate Dr. Pavel's termination,
and he had no say in that decision.
This Court has yet to address whether a tenured
professor's clear right to due process can be altered in
any way by the fact that the professor's department
chooses to form a union and enter into a collective
bargaining agreement.
The Ninth Circuit panel relied on Armstrong v.
Meyers, in which the Ninth Circuit held that the
availability of an arbitration process under a collective
bargaining agreement satisfies due process, even where
the union eventually declines to pursue arbitration,
"provided of course, those procedures satisfy due
process." 964 F.2d 948, 950-51 (9th Cir. 1992). The
Ninth Circuit held in the instant case: "Armstrong
controls here. As the district court correctly noted,
Pavel's grievance with the lack of post-termination

22
process lies with his union and cannot be brought
against defendants." App. 4a.
First, petitioner submits that Armstrong was
wrongly decided, because (especially as interpreted in
this case), it reduces the due process rights the public
employees had at the time they formed the union.
In the alternative, it is unconstitutional to apply

Armstrong to this case. Armstrong did not address Dr.

Pavel's situation – a public employee who, when he
obtained tenure, was not a member of a union. Before
the union was formed, Dr. Pavel possessed the pinnacle
of public employee property interests – that of a tenured
professor, who (without the benefit of a union) would
expect a lifelong appointment absent extraordinary good
cause. The Ninth Circuit's interpretation of Armstrong
strips him of those rights that he held prior to
unionization.
Making the outcome in this case even more
draconian is the fact that it is undisputed that no
University of Oregon tenured professor had ever been
involuntarily terminated – for any reason – prior to Dr.
Pavel being fired. Therefore, when they decided to
unionize, the University's tenured professors of course
had no idea that they could now be fired, without
recourse if their new union chose not to arbitrate.
Unionization – involving delegation of due process
rights to a group entity – should not be deemed to have
superseded and eliminated the individual right to due
process that is guaranteed by the Fifth and Fourteenth

23
Amendments to the Constitution. At the time they
unionized, the University of Oregon's tenured, publicly
employed professors already held a due process right
that could be claimed by very few Americans. The
unionization cannot be interpreted to have taken away
that pre-existing right. This issue is not addressed in
Armstrong nor in the other public union postdeprivation due process case law undersigned counsel
is aware of.

Cleveland Board of Education v. Loudermill, 470
U.S. 532, 546, 105 S. Ct. 1487 (1985), did not address
the situation where the post-termination process is
limited to the union's discretionary decision whether to
arbitrate. Furthermore, plaintiff was not given "an
explanation of the employer's evidence," nor was he
given a meaningful "opportunity to present his side of
the story." Therefore, the Loudermill factors were not
satisfied.
III.

The Ninth Circuit Erred in Granting Qualified
Immunity on Substantive Due Process

In this case, the Ninth Circuit held:
Whether the same actor must publicize the
stigmatizing information and deprive the plaintiff of
his protected property interest has not been clearly
established in the law. As no clearly established law
was violated here, qualified immunity applies.
App 4a. In situations such as this one – where a public
university bureaucracy fires a tenured employee on the

24
basis of individual biased employees' pursuit of an
investigation – causes an absurd result, where no one
can be held liable. This bureaucratic shielding of the
University as well as its employees cannot be what this
Court intended when it set forth the elements of public
employees' "stigma plus" substantive due process rights.
As this Court noted in Staub v. Proctor Hosp., 562
U.S. 411, 131 S. Ct. 1186 (2011), an employer can be
held liable for discriminatory conduct when an unbiased
human resources director fires an employee for
seemingly legitimate reasons, if a manager motivated
by discriminatory motives set the termination process
in motion. The Court concluded that even if the HR
director conducts an independent investigation, a jury
can permissibly find that the termination was tainted
by the underlying discrimination, if the termination
takes into account the biased supervisor's statements.
Given the fairly recent Staub decision, it would be
inconsistent for this Court to allow preclusion of a
substantive due process claim simply because the
person who issued the termination was not the same
person who issued stigmatizing statements. Here, the
dissemination of stigmatizing statements was not some
rogue act by an individual University employee, but
rather was an official release by the University itself.
It was similarly the University itself, through its
bureaucratic process – not an individual employee –
that terminated Dr. Pavel. To apply the "single actor"
rule in this context results in perverse outcomes,
precluding public employees from bringing substantive
due process claims.

25

CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that the Petition for Writ of Certiorari be
granted.
Respectfully submitted,
MARIANNE DUGAN, Attorney at Law

Counsel of Record

1430 Willamette St. # 359
Eugene, OR 97401
(541) 338-7072
fax 866-650-5213
mdugan@mdugan.com

